JOSH STEIN
ATTORNEY GENERAL

NICHOLAS S. BROD
ASSISTANT SOLICITOR GENERAL
(919) 716-6400
nbrod@ncdoj.gov

February 1, 2021
By Electronic Filing System
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Kopitke v. Bell, No. 20-897

Dear Mr. Harris:
I represent respondent Karen Bell in the above case. Ms. Bell does not
intend to file a response to the petition for a writ of certiorari unless one is
requested by the Court.
Sincerely,
/s/ Nicholas S. Brod
Nicholas S. Brod
Assistant Solicitor General
North Carolina Department of Justice
Post Office Box 629
Raleigh, North Carolina 27602
(919) 716-6400
nbrod@ncdoj.gov
cc:

Mr. Alan Woodruff
(by email)

POST OFFICE BOX 629, RALEIGH, NC 27602-0629

